               U.S. Department of Agriculture
                   Office of Inspector General




Review of the Emergency Food
     Assistance Program




                          Audit Report 27703-1-At
                                      March 2010
                                                 U.S. Department of Agriculture
                                                  Office of Inspector General
                                                    Washington, D.C. 20250




DATE:                March 31, 2010

REPLY TO
ATTN OF:             27703-1-AT

TO:                  Julie Paradis
                     Administrator
                     Food and Nutrition Service

ATTN:                Lael Lubing
                     Director
                     Grants Management Division

FROM:                Gil H. Harden /S/
                     Acting Assistant Inspector General
                      for Audit

SUBJECT:             Review of the Food and Nutrition Service’s Controls Over the Emergency Food
                     Assistance Program Phase I


Summary

As the agency of the U.S. Department of Agriculture (USDA) responsible for providing food
assistance to Americans in need, the Food and Nutrition Service (FNS) operates The Emergency
Food Assistance Program (TEFAP), which is designed to supplement the diets of low-income
Americans by providing emergency food and nutrition assistance at no cost. According to the
2008 Farm Bill, USDA was required to spend approximately $248 million in fiscal year (FY)
2009 for the purchase of food for TEFAP. On February 17, 2009, $150 million in additional
funds were made available to the program under the American Recovery and Reinvestment Act
of 2009 (Recovery Act).1 Congress and the President have made it clear that they expect Federal
agencies to exercise especially rigorous control of Recovery Act funds.

Based on our review of FNS’ management controls over TEFAP, we found that the agency was
not frequently and consistently reviewing State operation of the program. Of the 55 States and
territories administering TEFAP, FNS had not performed a management review of 25 since
FY 20052 and the evaluations that were performed did not necessarily focus on States and
territories that were at the greatest risk of fraud, waste, and abuse. Additionally, the FNS
regional offices reviewed their States and territories inconsistently, some focusing on certain
components and neglecting others. This occurred because FNS believed there was a low risk of
1
 In total, for FY 2009, $84.5 million was available for administrative costs.
2
 TEFAP operates in all 50 States as well as the Commonwealth of the Northern Mariana Islands; the District of Columbia; Guam; Puerto Rico;
and the Virgin Islands.

Audit Report 27703-1-At                                                                                                              1
fraud, waste, and abuse in the program based on the fact that TEFAP had significantly fewer
dollars than other programs FNS administers, such as the Supplemental Nutrition Assistance
Program ($67.3 billion for FY 2010) 3 and the Special Supplemental Nutrition Program for
Women, Infants, and Children ($7.7 billion for FY 2010), and because no material issues have
been disclosed in recent management evaluations performed. We maintain, however, that FNS’
low risk determination was not supported given the fact that management evaluations were not
performed frequently or consistently. Moreover, given the oversight requirements of the
Recovery Act, FNS needs to subject TEFAP to additional and more regular scrutiny.

Background

Under TEFAP, USDA buys, processes, packages, and ships food to individual States. TEFAP
food and administrative funds are distributed according to a formula based on each State’s
poverty and unemployment level. States set their own income eligibility criteria and establish
their own plans for program administration and food distribution. The States select local
subrecipient organizations (e.g., food banks, food pantries, or homeless shelters) that directly
distribute food to households, serve meals, or distribute food to other local organizations that
perform these functions.

Each State agency that administers TEFAP is required to enter into a Federal-State agreement
with FNS. This agreement requires that the State agency comply with Federal statutes,
regulations, and other directives, especially regarding the use of Federal funding. To ensure
compliance with the Federal-State agreement, FNS conducts management evaluations of TEFAP
to review program operations at State agencies. Management evaluations cover a range of topics
including financial management, inventory, warehousing, eligibility, and State agency reviews of
their local recipient agencies.

    Objectives

The objectives of our audit were to determine if FNS (1) was timely and effectively
administering Recovery Act provisions regarding TEFAP, and (2) had established proper internal
control procedures and effective compliance operations.

Finding 1: Implementation of Internal Control Measures for TEFAP Needs to be
Strengthened to Mitigate Program Risk.

Since FY 2005, FNS regional offices have not performed management evaluations for 25 of the
55 States and territories that administer TEFAP. FNS national officials made a decision to grant
regional offices the authority to determine if these evaluations were needed because they
regarded TEFAP as low risk and because evaluations completed on a regular cycle in prior years
did not disclose many problems. FNS national officials based their low risk determination for
TEFAP primarily on the fact that the program had significantly fewer dollars than other FNS
programs like the Supplemental Nutrition Assistance Program and the Special Supplemental
Nutrition Program for Women, Infants, and Children. We found, however, that FNS did not
perform a sufficient assessment to determine TEFAP’s overall risk and that no guidance was

3
    Totals for the Supplemental Nutrition Assistance Program include $61.4 billion for regular appropriations and $5.9 billion for Recovery Act.

Audit Report 27703-1-At                                                                                                                     2
provided to the regional offices to define a “need” for review. Without this information, there is
an increased risk that program errors may go undetected and that TEFAP would not be managed
in accordance with applicable requirements. Given the additional monitoring requirements of
the Recovery Act,4 the Office of Inspector General (OIG) believes that FNS needs to more
actively review TEFAP operations in States and territories.

Prior to FY 2007, FNS required that TEFAP management evaluations be conducted on a 3 to
5 year cycle. According to FNS national officials, prior management evaluations of TEFAP did
not identify significant findings; they therefore concluded that the program was at low risk. FNS
national officials considered the risk to TEFAP low due to the nature, size, and the operational
realities of the program when compared to other larger FNS programs. 5

FNS further reasoned that incremental costs (staff and funds) to standardize and increase the
frequency of monitoring TEFAP activities were neither warranted nor cost-effective. The
national office therefore instructed regional offices to perform management evaluations only on
an “as needed” basis; however, no guidance was provided to define what constitutes a “need.”
We concluded that if FNS had performed management evaluations more frequently and more
consistently it would then have had a valid basis to assess TEFAP’s risk level.

Since FNS is receiving additional funding for TEFAP from the Recovery Act, it must take steps
to increase its oversight of the program. However, even without additional funding, a more
frequent review is needed for TEFAP to ensure compliance with program requirements. When
we discussed this issue with FNS officials, they generally agreed that the frequency of
management evaluations needed to be increased. FNS officials added that they would schedule
management evaluations to be completed during FY 2010 for three States that receive a high
percentage of TEFAP funding which have not been reviewed since FY 2005. OIG agrees that
FNS should continue to focus on reviewing those States that have not been reviewed since 2005,
giving priority to States receiving the most dollars in TEFAP funding.

We also found that FNS did not perform management evaluations consistently. In each of the
three FNS regional offices we reviewed, we found instances in which management evaluations
were conducted using an abbreviated version of the management evaluation module. For
example, one FNS regional office had developed a new module, reducing the scope of the
financial management review component, and had been using that revised module to conduct all
TEFAP management evaluations within its region.6 Reviews conducted by other FNS regional
offices that we visited also had situations in which critical components such as inventory
controls, financial management, eligibility, and monitoring were not always included in
management evaluation reviews. FNS national program officials thus lacked a consistent basis
for evaluating program operations nationwide and determining relative risk. Consequently,
4
  Office of Management and Budget Memorandum – Updated Implementing Guidance for the American Recovery and Reinvestment Act of 2009
(M-09-15), dated April 3, 2009, states that, “Federal agencies are expected to initiate additional oversight…for Recovery Act funded grants, such
as mandatory field visits.”
5
  Policy Number FD-036, August 31, 2004, “TEFAP Local Level Record Keeping and Reporting Requirements,” describes the operational
realities – TEFAP depends primarily on a structure of community-based charitable services that existed long before the program. TEFAP sites
are typically neighborhood organizations that receive small amounts of USDA commodities. Often they are staffed mainly or entirely by
volunteers. The unit value of the benefit – the TEFAP part of either food given to a household or a meal served in a soup kitchen – is usually
small.
6
  The region left most financial management review functions to be performed during the financial management reviews, but those reviews had
been discontinued for TEFAP

Audit Report 27703-1-At                                                                                                                  3
FNS’ low risk determination was not supported given the fact that management evaluations were
not performed frequently or consistently. When we spoke to FNS national officials about this
problem, they stated that they have finalized a standardized management review module for use
in the regions, and that they will encourage regional offices to conduct evaluations using all
elements defined in the module for TEFAP. OIG concluded that FNS must take steps to make its
management evaluations of TEFAP both more frequent and more consistent by requiring FNS
regional offices to use all module elements when conducting TEFAP management evaluations.
Considering the higher standards of accountability for Recovery Act funding, it is necessary for
FNS to increase its oversight of TEFAP.

   Recommendation 1
   Develop and implement a schedule that details the timeframes when evaluations will be
   completed for the States and territories. Focus scheduling on State agencies receiving the
   most dollars in TEFAP funding.

   Agency Response
   FNS responded that due to their limited resources and the small size of TEFAP relative to
   other FNS programs, they could not commit to reviewing a certain number of TEFAP State
   agencies on a regular cyclical basis. FNS instead, agreed to explore using a standard
   approach to identify which State agencies needed a management evaluation based on risk
   factors, such as the dollar amount allocated and each State agency’s potential for fraud,
   waste, and abuse.

   OIG Position
   We do not accept FNS’ management decision for this recommendation. To reach
   management decision, FNS needs to provide the results of its examination of a risk-based
   approach including the specific risk factors that were considered. Additionally, provide plans
   for reviewing states and territories including a timetable for performing the reviews.

   Recommendation 2
   Develop and implement policies and procedures that specify the frequency and scope of
   programmatic evaluations of State agencies, including identifying criteria for selecting
   recipients to be reviewed and standards for deviating from scheduled review dates.

   Agency Response
   FNS responded that, after determining the appropriate course of action for scheduling
   TEFAP State agency management evaluations as described in FNS' response to
   Recommendation 1, they will develop guidance regarding the use of the recently updated
   standard TEFAP management evaluation module to avoid inconsistency in the evaluation
   process and content of the reviews.




Audit Report 27703-1-At                                                                       4
   OIG Position
   We do not accept FNS’ management decision for this recommendation. To reach
   management decision, FNS needs to provide a plan and timetable for issuing guidance
   regarding the frequency and scope of reviews.

Scope and Methodology

This review focused on how FNS allocates and distributes commodities and administrative funds
for operating the program. Additionally, we evaluated the agency’s internal controls and
performance measures over both regularly appropriated and Recovery Act funds. We evaluated
current FNS operations and programmatic management evaluations completed between FY 2005
and FY 2009. Fieldwork was conducted at the FNS national office in Alexandria, Virginia, and
FNS regional offices in Atlanta, Georgia; Chicago, Illinois; and San Francisco, California. We
selected regions overseeing States with the most dollars allocated for TEFAP.
To accomplish our objectives, we reviewed Federal regulations, FNS policies and procedures,
the Recovery Act, and Federal and State agreements and contracts for TEFAP. We interviewed
FNS national and regional office officials, and reviewed prior FNS regional office management
evaluations. Additionally, we reviewed and analyzed the process for commodity ordering,
program monitoring and reporting, and allocation and management of administrative funds.
Fieldwork was performed from May 2009 to December 2009. We conducted this performance
review in accordance with generally accepted Government auditing standards. Those standards
require that we plan and perform the review to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.




Audit Report 27703-1-At                                                                      5
Agency’s Response




                    USDA’S




           Food and Nutrition Service




        RESPONSE TO AUDIT REPORT
                   ..
                   USDA
                 REPLY:          27703-l-AT
United States
Department of    TO:             Rod DeSmet
Agriculture                      Acting Assistant Inspector General for Audit
Food and
Nutrition
                 FROM:           Julia Paradis lsi
Service                          Administrator
                                 Food and Nutrition Service                MAR 302010
3101 Park
Center Drive
                 SUBJECT:        Review of the Food and Nutrition Service's Controls Over the Emergency Food
Alexandria, VA                   Assistance Program (TEFAP) Phase I
22302-1500

                 This responds to the official draft audit report #27703-l-AT, Review of the Food and Nutrition
                 Service's Controls Over the Emergency Food Assistance Program - Phase 1.

                 Recommendation 1

                 Develop and implement a schedule that details the timeframes when evaluations will be
                 completed for the States and territories. Focus scheduling on agencies receiving the largest
                 dollars in TEFAP funding.

                 Food and Nutrition Service (FNS) Response:

                 FNS has limited resources available to conduct regular management evaluations (ME) of its 16
                 programs. Currently, FNS concentrates ME resources on its multi-billion dollar programs, such
                 as the Supplemental Nutrition Assistance Program, the National School LunchlBreakfast Program
                 and the Special Supplemental Program for Women, Infants and Children. MEs are currently
                 performed on an "as needed" basis in smaller programs such as TEFAP and Regional Offices
                 have discretion to determine which State agencies will be subject to a TEFAP ME in a given year,
                 using criteria identified by each Region.

                 With limited resources, FNS cannot commit to reviewing a certain number of TEFAP State
                 agencies on a regular, cyclical basis. However, FNS will explore the use of a standard, risk-based
                 approach to identifying TEFAP state agencies that should receive priority attention for MEs. We
                 will consider the dollar value ofTEFAP funding allocated to each state as part of this approach
                 as well as other factors that would indicate potential risk for waste, fraud, and abuse by TEFAP
                 State agencies.

                 Recommendation 2

                 Develop and implement policies and procedures that specific the frequency and scope of
                 programmatic evaluations over State agencies, including identifying criteria for selecting
                 recipients to be reviewed and standards for deviating from scheduled review dates.

                 Food and Nutrition Service Response:

                 After determining the appropriate course of action for scheduling TEFAP State agency MEs as
                 described in FNS' response to Recommendation 1 above, FNS will develop guidance regarding
                 the use of the recently updated standard TEFAP ME module to avoid inconsistency in the
                 evaluation process and content of the reviews. As necessary and appropriate, FNS will outline



                                                AN EQUAL OPPORTUNITY EMPLOYER
situations or standards where deviations from the scheduled review procedures would be
acceptable.
